U.S. Commodity Futures Trading Commission
Office of the Inspector General




        A Preliminary Investigation Regarding Position Limits
        Rulemaking Efforts Undertaken by the Commodity Futures
        Trading Commission Pursuant to the Dodd-Frank Act


        REPORT OF PRELIMINARY INVESTIGATION


        REDACTED


        Prepared by the
                                         Office ofthe Inspector General
                                         Commodity Futures Trading Commission


                                         February 15,2012




All redactions in this report have been made pursuant to FOIA Exemptions (b)(6) and (b)(7)(C).
                                      EXECUTIVE SUMMARY

        The Office of the Inspector General for the Commodity Futures Trading Commission
conducted a preliminary investigation of the process by which the Commodity Futures Trading
Commission proposed and adopted rules governing position limits under the Dodd Frank Act. 1
We undertook this preliminary investigation upon the receipt of two anonymous communications
alleging misconduct in connection with this rulemaking. We received the anonymous allegations
on August 29 and 31, 2011. One arrived by physical delivery, the other by email. We sought
more information from the anonymous emailer, and received one additional email.

        The allegations were that the team leader for the position limits rulemaking "sneakily"
got himself appointed team lead and thereafter removed from the team the most experienced
members in order to use only newer CFTC employees that he could manipulate (presumably in
order to improperly influence the substance of the rule). The team leader was also alleged to
have engaged in improper communications with external entities while working on the rule. The
anonymous allegations additionally asserted that the position limits rulemaking would be
unworkable because it was not compatible with the large swaps trader reporting rule. In fact, the
position limits rulemaking team originally was combined with the large swaps trader reporting
team.

       While vague, the allegations encompassed potentially criminal activity in a recent
mission-critical undertaking required under the Dodd-Frank Act because they generally alleged
dishonest conduct and corruption.

         Finally, the anonymous submitters claimed they were afraid of retaliation (or renewed
retaliation) in the Division of Market Oversight (DMO)2 We determined to take a closer look in
order to determine whether to make any referrals for further investigation.

        We conducted interviews with 14 original members of the large swaps trader and position
limits rulemaking team, and with one additional team member later added. In addition, we
conducted additional interviews with seven CFTC employees also involved with the position
limits rulemaking, including Chairman Gensler and members of his staff; Rick Shilts, Director of
DMO (who supervised the team leads for the position limits and large swaps trader reporting
rulemakings); and CFTC employees who were consulted in connection with the position limits
rulemaking. We stressed to staff level employees that we would endeavor to keep confidential
the identities of the sources of information provided in these interviews.

       We found no evidence to sustain a preliminary finding of wrongdoing by any individual
connected with the position limits and large swaps trader reporting rulemakings. No witness
presented evidence of corruption or violations oflaw in connection with the drafting of the



1 Dodd-Frank Wall Street Reform and Consumer Protection Ac~ Public Law III-2m, 124 Stat 1376 (201 0)
("Dodd-Frank Act" or "Dodd-Frank").
2 Please see Appendix I for a list of all acronyms used in this report.
position limits rule by the team lead or any other person who worked on the rule. The team lead
for the position limits rulemaking received both praise and criticism for his management style.

         Specifically, we found no evidence to indicate that the position limits rulemaking team
leader "sneakily" had himself appointed team lead. Witnesses uniformly asserted that the need
to split the teams arose from the volume of work involved with these two particular rules.
Witnesses also were uniform in their assertion that the person who was appointed team lead for
the position limits rulemaking team had superior experience with position limits, and did not ask
for the assignment.

        We found no evidence that the position limits rulemaking team was managed by the team
lead so as to disregard more experienced CFTC employees in favor of less experienced ones that
could be manipulated. Witnesses told us that team members - both experienced and less
experienced - came and went with varying degrees of participation throughout the process, both
due to the fact their involvement was issue-specific, and in order to keep up with ongoing CFTC
work. The team members involved with drafting - the most time-consuming task - was
comprised of one lawyer and one economist each with over 10 years financial regulatory
experience; along with one lawyer with roughly two years industry experience dealing
specifically with energy trading and fewer than two years financial regulatory experience; and
one economist with fewer than two years' experience. The core drafting team was small of
necessity, as it would be time consuming to coordinate drafting and review by a large group and
still meet deadlines. In addition, witness interviews as well as our examination of numerous
email generated during the position limits rulemaking process show the team lead consulted not
only with the other team members, but also with CFTC employees with over 20 years'
experience throughout the process.

        Finally, witnesses uniformly stressed that the position limits rulemaking, more so than
most other rulemakings, was heavily influenced throughout by the Chairman and
Commissioners, with more than one witness stating that the team lead's influence on policy for
this particular rule was somewhat limited due to the Commission's direct involvement.

         We also found no evidence of improper communications with external sources; however,
this allegation was vague. The CFTC documented over 100 meetings with external sources
during the course of the position limits rulemaking process. No witness was aware of any
improper communications.

         We found no evidence that the position limits rulemaking is fatally flawed due to its
incompatibility with the large swaps trader reporting rulemaking. The two rules are interrelated.
Information collected from large swaps traders will enable the CFTC to see the entire market and
will also be used to implement and enforce position limits in accord with the Dodd-Frank Act.
Throughout the rulemaking process, Commissioners publicly acknowledged the potential
complexity of the interrelation between these two rules, and acknowledged that large swaps
trader reporting necessarily would be subject to later adjustment to facilitate both the calculation
and enforcement of any position limits. The two rules initially were teamed together in order to
facilitate this data coordination.



                                                 11
        Witnesses told us that data coordination issues came to a head as the position limits
rulemaking neared completion. Eventually it was determined that assuring the collection of
adequate data to establish and enforce position limits would be worked out during the
implementation stage oflarge swaps trader reporting. Based on our interviews we do not
conclude that corruption, incompetence, or misconduct by CFTC staff contributed to these
Issues.

         Finally, we found no evidence that CFTC employees in DMO who have raised issues or
complained to management regarding the position limits rulemaking have been subjected to
retaliation. CFTC employees serving on the combined team and later the separate teams seemed
to have their preferred team lead throughout the rulemaking process for position limits and large
swaps trader reporting, with some praising the team lead for large swaps trader reporting and
others favoring the team lead for position limits. Moreover, we encountered witnesses who
disliked or had some degree of disagreement with each team leader's management style.
However, more than one witness told us that, when issues regarding the team leads were brought
to the attention ofDMO management, the response was effective and there was no retaliation.

      Due to the uniform quality of information received from CFTC employees and
management, we did not take steps to refer this matter for further investigation.




                                                111
                                                       TABLE OF CONTENTS
Executive Summary                                                                                                                              i
Table of Contents                                                                                                                            iv
Background: The Large Swaps Trader Reporting and Position Limits Rulemaking Team                                                              1
      Table 1: The Original Large Swaps Trader Reporting and Position Limits Rulemaking
      Team (in alphabetical order) with Issue Assignments                                                                                     1
Anonymous Allegations                                                                                                 ~                       3
Methodology ......................................................................•........................................................... 6
Findings                                                                                                                                      7
   Allegation #1: Improper Control of the Team                                                                                                7
      Table 2: Experience on the Large Swaps Trader Reporting and Position Limits Rulemaking
      Team                                                                                  9
      Table 3 - Everyone Who Worked on or Were Consulted in Connection with the Position
      Limits and Large Swaps Trader Reporting Rulemaking                                 12
   Allegation #2: Improper External Meetings                                                                                                14
   Allegation #3: The Position Limits Rule is not Workable Because it Conflicts with the Large
   Swaps Trader Reporting Rule                                                                14
   Allegation #4: Fear of Retaliation                                                                                                       20
Conclusions                                                                                                                                 20
APPENDICES                                         ~                                                                                        21
   Appendix 1: Acronyms                                                                                                                     22
   Appendix 2: Disclosure                                                                                                                   23
Exhibits                                                                                                                                    24
   Exhibit 1: Anonymous Allegation Received by Physical Delivery on August 31,2011..                                                        25
   Exhibit 2: Anonymous Allegations Received by EmaiL                                                                                       27




                                                                      IV
    BACKGROUND: THE LARGE SWAPS TRADER REPORTING AND POSITION LIMITS
                           RULEMAKING TEAM

       Following passage of the Dodd-Frank Act, the Chainnan and Division Directors created
30 rulemaking teams. 3 The position limits and large swaps trader reporting team began with 18
                                                                                          4
or 19 members, including the team leader, Bruce Fekrat. All were assigned various issues:

Table 1: The Original Large Swaps Trader Reporting and Position Limits Rulemaking Team (in alphabetical order) with Issue Assignments
                                                               Aggregate Position Setting                                               Foreign boards   Large Trader
                                                                                             Significant Price
                                        Years at (FTC (in                        position
                                                               Limits for Physical                               Hedge      Account     of trade         Reporting System
NAME       JobTitle     (FTC Division 2011)                                                  Discovery
                                                               Commodity         limit                           exemptions aggregation (account         nTRS") for Physical




1--'
                                                                                             Function Swaps
                                                               Futures and Swaps levels                                                 aggregation)     Commodity Swaps

                        DMO             1 to 2 years           ~                     ~       ~                               ~          ~


                        International
           Attorney                     1 to 2 years                                                                                    ~
                        Affairs

           Economist    DMO             1 to 2 years           ~                     ~                           ~                                       ~


Fekrat,
           Attorney     DMO             5tolOyears              ./                   ~                           ~                                       ~
Bruce

           Senior IT    0115            1 to 2 years                                                                                                     ~


           Risk
                        0(10            2Oto25years                                                                                                      ~
           Management

           Senior IT    0115            5tolOyears                                                                                                       ~


                                        1 to 2 years (plus 5
           Attorney     Enforcement                                                          ~                               ~
                                        years at FERC)

           Attorney     DMO             1 to 2 years           ~                             ~                               ~


           Economist    DMO             25to30years            ~

                                        5 to 10 years (plus
           Attorney     OGe                                    ~                                                                        ~
                                        8 years SEC)

           Attorney     OGe             1 to 2 years           ~                                                                        ~




           Economist    DMO             1 to 2 years           ~                                                                                         ~


           Associate
                        DMO             15to20years                                                                                                      ~
           Director
           Economist    DMO             1 to 2 years           ~                                                                                         ~


           Attorney     OGe             lOto 15 years                                                                                   ~


                        International
           Attorney                   15to20years                                                                                       ~
                        Affairs

           Economist    OeE             1 to 2 years

Sherrod,   Deputy
                        DMO             5tol0years             ~
Steve      Director




3 A 31" team was later created and tasked with developing conforming rules to update the CFTC's existing
regulations to take into account the provisions of Dodd-Frank Testimony of Chairman Gary Gensler before the
House Committee on Agriculture, February 11,2011, available at:
http://www.cftc.goviPressRoom/SpeechesTestimony!opagensler-68.htm1.
4 Bruce Fekrat, Memo re SUBJECT: Aggregate Position Limit Rulemaking for Physical Commodity Futures and

Swaps (including amendments to the Commission's Large Trader Reporting Rules), August 2010. We noticed a
minor discrepancy: while the opening memo lists 18 CFTC employees as team leaders or members, the
accompanying discussion includes one additional attorney from O G C , _ . The representative from
aCE left the Agency early on; he was later replaced with~ 1 to 2 years' experience at
CFTC during the relevant period during 2010-2011.


                                                                                         1
      Rulemaking activities began after creation of the teams. On October 19, 2010, the
Commission held a public meeting addressing, among other things, large trader reporting for
                                   5
swaps and physical commodities The Commission approved the proposed rule for large swaps
trader reporting by unanimous vote that day, and the Federal Register published the proposed
rule for large trader reporting for swaps and physical commodities on November 2, 2010. 6

     On December 16, 2010, the Commission held an Open Meeting on the Eighth Series of
Proposed Rulemakings Under the Dodd-Frank Act 7 The position limits rulemaking was
discussed, and on January 26,2011, the Federal Register published the proposed rule for position
limits 8

     The proposed rule for large swaps trader reporting proved relatively uncontroversial and
generated low levels of interest. The CFTC received 1,165 items addressing this proposed rule 9
In addition, Commission staff participated in four meetings with five outside entities 10 to discuss
the rule.

      In contrast, the position limits rulemaking generated more interest. The CFTC received
                                                                    11
14,143 items addressing the proposed position limits rulemaking. In addition, the Commission
staff participated in 177 meetings with outside entities to discuss the rule. 12 Consequently, the
large swaps trader reporting rule moved more quickly through the final rule drafting process than
the position limits rule.




5 Open Meeting on the Second Series ofProposed Rulemakings Under the Dodd-FrankAct, Washington, nc.,
October 19, 2010. Infonnation on this meeting is available here:
http://www.cftc. gOYiPressRoomiEvents/opaevent cftcdoddfrank101910.
675 FR 67258 (Nov. 2, 2010)( http://www.cftc.gov/ucm/groups/public/@lrfederalregister/documents/file/2010-
27538a.pdD.
7 Information on the Open Meeting on the Eighth Series ofProposed Rules under the Dodd-Frank Act is available
here: http://www. dtc.goviPressRoomiEvents/opaevent cftcdoddfrankl21610.
876 FR 4752 (Jan. 26, 2011) (http://www.cftc.gov/ucm/groups/public/@lrfederalregister/documents/file/2011-
1154a.pdO.
9 This infonnation is found on the CFTC website at
http://comments.cftc.gov!PublicComments/CommentListaspx?id~889.
10 This infonnation is found on the CFTC website at

http://www.cftc.gov!LawRegulationIDoddFrankActiRulemakingsiXXXII.LargeSwapsTraderReporting/index.htm .
11 This infonnation is found on the CFTC website at
http://comments.cftc.gov!PublicComments/CommentListaspx?id~965, and includes comments to the interim final
position limits rule published on November 18, 2011 (76 FR 71626). In addition, the number of comments has been
estimated at 16,000. Open Meeting on Two Final Rule Proposals Under the Dodd-FrankAct (Oct 18, 2011),
http://www.cftc.gov/ucm/groups/public/@swaps/documents/dfsubmissionldfsubmission7 I 01811-trans.pdf (hearing
transcript at page 146).
12 This infonnation is found on the CFTC website at
http://www.cftc.gov!LawRegulationIDoddFrankActiRulemakingsiDF26PosLimits/index.htm .

                                                       2
     On July II, 20 II, the Commission held an Open Meeting on Five Final Rule Proposals
Under the Dodd-Frank Act, and the large swaps trader reporting rule was included. 13 The rule
passed by unanimous vote that day. The Federal Register published the final large trader swaps
reporting rule on July 22, 2011, with an effective date of September 20, 2011 14

        On November 18, 2011, the Federal Register published the Commission's final rules
establishing federal position limits effective, in large part, 60 days after the term "swap" is
further defined under Dodd-Frank. IS A portion of the final rules, relating to the spot-month
position limits, was designated as an "interim final rule," which provided for an additional 60-
day comment period. Comments on the interim final rule were due on January 17, 2012.

        On December 2,2011, the International Swaps Dealers Association (ISDA) and the
Securities Industry and Financial Markets Association (SIFMA) filed "challenges" to the
position limits rule in the U.S. District Court for the District of Columbia and the U.S. Court of
                                                16
Appeals for the District of Columbia Circuit.

        On December 12, 2011, the ISDA and SIFMA filed a motion to stay the effective date of
the position limits rule pending judicial review. On January 3,2012, the Commission denied the
    ."
mohon   lor stay. 17

       On January 20,2012, the United States Circuit Court for the District of Columbia Circuit
dismissed the challenges filed by ISDA and SIFMA, concluding that Dodd- Frank did not
authorize challenges in that court. Litigation in the District Court is ongoing.


                                      ANONYMOUS ALLEGATIONS

On August 29 and 31,2011, anonymous allegations arrived at CFTC OIG, one by email and
another ("the hard copy") simply slipped under the door to the OIG offices at CFTC
              18
headquarters. Both allegations concerned a position limits rulemaking (PLR) currently
ongoing as part of the CFTC's efforts to implement the Dodd-Frank Act. The hard copy19
alleged as follows (regarding the ongoing position limits rulemaking):



13 Open Meeting on Five Final Rule Proposals Under the Dodd-Frank Act, Washington, D. C. (July 7, 2011),
http://www.cftc. gOYIPressRoomlEvents/opaevent cftcdoddfrank07071I .
14 76 FR 43851 (July 22, 2011). http://www.cftc.gov/ucm/groups/public!@lrfederalregister/documents/file/2011-
18054a.pdf
15 76 FR 71626,71632 (Nov. 18,2011).

http://www.cftc. gOY/ucm/groups/public!@lrfederalregister/documents/file/2011-28809-1 a.pdf
16 Int'l Swaps and Derivatives Ass'n v. CFTC, NO.1: II-cv-2146 (D.D.C); (Int'l Swaps & Derivatives Ass 'n v.

CFTC, No. 11-1469 (D.c. CiL). More information on these actions, including links to the complaint filed in the
US. District Court for the District of Columbia and the petition for review filed in the US. Court of Appeals for the
District of Columbia may be found here: http://www2.isda.org/news/isda-and-sifma-file-lawsuits-challenging-
corn ill odity- futures-trading-corn ill issions-rille-on-pasiti on-limits.
17 The motion for stay and the Commission's Order are available here:
http://www.cftc. gOY/ucm/groups/public!@newsroom/documents/file/orderOI0312.pdf
18 CFTC Headquarters is located at 1155 21" St, NW., Washington DC 20581:
19Attached as Exhibit I.


                                                          3
   •   "It's broken"
   •   "It cannot be implemented"
   •   The rulemaking effort includes "many internal mis-steps, waste, and improprieties"
   •   "The PLR can't be connected to the Swaps reporting rule upon which it depends for
       implementation"
   •   "The leader of the PLR team is responsible for this wasted, misguided agency effort"
   •   The leader "culled experts from the original team because they disagreed with his point
       of view"
   •   "There was [sic] about 15 people from across the agency, now there are only about 6"
   •   "All the current team members have less than 18 months of CFTC tenure. 3 have less
       than 2 years offutures industry experience. 1 attorney and 1 statistician were hired
       within the last year."
   •   The leader "selected these people because he knew they would not get in his way."
   •   "The final rule is not a committee/staff product, it is his alone."
   •   The leader "met with several industry lobby groups, so 1suspect some fraud and
       dishonest effort here."
   •   The leader "is unethical and dishonest in his pursuits in this and other matters."
   •   "The rule effort has been a waste of agency resources and an abuse of power, and perhaps
       some fraud."

   The hard copy allegation did not identify the author by name, nor did the allegation state
whether the author was a CFTC employee. The emailed allegation states the author is a CFTC
employee. This employee alleged (concerning the position limits rulemaking):

   •   "1 believe the team lead of a crucial rulemaking team has acted dishonestly and led his
       team to a point were [sic] their rule is not implementable."
   •   "The team was gradually trimmed until it was left with only the most inexperienced
       staffers so that the team lead would have absolute control."
   •   The position limits team "chose to forge ahead with a plan that required a completely
       different information set [from the swaps reporting rulemaking] and is thus planning to
       propose something that cannot possibly be implemented. 1find it hard to believe this was
       by accident... and suspect the motives of this person."
   •   "Gutting out the intent of Position Limits as required by Dodd-Frank, wasting taxpayer
       monies, steamrolling over other staff, proposing a rule that cannot possibly be
       implemented, is wasteful. More than that, it is dishonest."

The anonymous source of this allegation also stated that he was writing through a pseudonym
"since 1 am afraid of renewed retaliation." He stated that the team lead for the position limits
rulemaking "has acted dishonestly and led his team to a point were [sic] their rule is not
implementable." The allegation continued:

       1 am referring to the rulemaking on position limits. The team was gradually
       trimmed until it was left with only the most inexperienced staffers so that the team
       lead would have absolute control. The position limit rule depends for its
       implementation on the work of another rule, the swap large trader reporting. Since


                                                 4
       you cannot limit positions unless you can measure them, the poslim rule is limited
       by what the SLTR requires traders submit. The SLTR was thoughtfully written
       and was out for comment, receiving just a handful of minor comments. It is to be
       implemented in three weeks. Yet, the poslim team lead chose to forge ahead with
       a plan that required a completely different information set and is thus planning to
       propose something that cannot possibly be implemented. I find it hard to believe
       this was by accident (Is utter incompetence something you look at too?) and
       suspect the motives of this person.

       Gutting out the intent of Position Limits as required by Dodd-Frank, wasting
       taxpayer monies, steamrolling over other staff, proposing a rule that cannot
       possibly be implemented, is wasteful. More than that, it is dishonest. I hope you
       investigate before it is too late. Perhaps there is a chance to rectify before the
       CFTC damages markets and public confidence.

        Because we had an email address associated with the anonymous allegation received by
email, on September 7 we sent a "return" email requesting further information. On September 9
we received a second communication from the anonymous email-er which stated:

              I am simultaneously terrified of complaining and appalled by what is
       going on with the rulemaking on position limits. By now it may be too late to do
       anything: a proposal has been circulated, meetings with Comms are taking place
       and a new draft with their comments and compromises is due end of next week.

               Perhaps it is best to just let it come out and when you see all Comms
       distancing themselves from it and all parties outraged, you will have more time
       and sources to review how we ended in this mess.

                In a nutshell, the rule on position limits depends on gathering information
       in a very peculiar way, alien to industry practice, even academic practice, and
       most importantly, alien to how the Large swaps Trader Reporting Rule was
       designed. So, it is not implementable unless the SLTR is modified. However,
       that rule was finalized with few comments and was supposed to be put in practice
       starting in two weeks. Now [the team lead] is asking that SLTR rule to change to
       fit his PosLim rule. This would require such major changes that it would have to
       be delayed, reopen for comments, etc. crucially, the new data would perhaps help
       his rule, but would make it nearly useless for any other purpose, like Risk
       Surveillance or even market Surveillance.

              Simultaneously, [the team lead] is drafting the new rule to be a complete
       cave out [sic]. This way perhaps people out in industry will not notice the mess
       as much. When the limits are so high and position so easy to offset, they would
       NEVER get hit, How [sic] can anyone know that they are not really implemented?

               This was a completely avoidable problem, the incompatibility of two rules
       that should work together, since both rulemaking teams used to work together


                                                5
           under [one team leader]. [The PLR team leader] sneakily got [Bruce Fekrat]
           kicked out and kept the PosLim staffed with inexperienced people whom he could
           bully. There was no check on him, he worked nearly secretely [sic] (as he always
           does) and upended the whole thing. Was this incompetence, mismanagement
           from above, or outright sabotage. [sic] That is the question.

                  For those of us that devoted over a year of our professional lives to
           rulemaking, it is devastating that we will have to hide in shame in our resume
           what should have been a signal effort for an attorney at CFTC.

                   If you want to know more now though, I would suggest chatting
           confidentially with the team on SLTR and some of the people in the PosLim rule
           .... I am way to [sic] scared to come out to OIG, specially [sic] if what I hear is
           true and [the PLR team lead] ends up there. He would be all over me and I would
           have to leave the agency.

                  I hope you do look into this for the credibility of the Agency. Working in
           the OIG, I hope you have the courage I cannot find.

                    Best ofluck 20

We received no further allegations or complaints regarding the position limits rulemaking from
any source.

                                                METHODOLOGY

        In order to complete our work, we reviewed drafts of the position limits rulemaking, staff
email, internal memoranda, transcripts of Commission meetings, and external comments. In
addition, we conducted interviews with 21 CFTC employees at staff and various management
levels who were involved with the position limits or swaps reporting rulemakings, and the
Chairman. Some were consulted multiple times. Witnesses generally were asked to describe
their involvement in the position limits and/or swaps reporting rulemakings, in a narrative form.
Depending on their level of involvement, they were also asked whether they had any information
indicating whether (or not) the team lead maneuvered or schemed to be appointed team lead,
reduced the team to its least experienced members, inserted himself improperly in the
rulemaking process, or engaged in improper communications with outside entities. We asked
whether the rule as constructed harmonized with the swaps reporting rule and, if not, to describe
any compatibility issues regarding the collection of information under the swaps reporting rule
and enforcement of position limits. We asked witnesses in DMO whether they feared retaliation
or whether they had experienced or witnessed retaliation in the workplace, focusing on those
witnesses who worked in the same division as the team lead. We asked generally if anything
improper had occurred during the rulemaking.

      While we had general allegations of fraud, dishonesty, improper communications and
misconduct, we had no allegations of specific acts that would violate discrete federal criminal

20   The anonymous allegations received by email are attached as Exhibit 2.

                                                           6
prohibitions. For instance, reducing a rulemaking team to its least experienced members does
not violate any statute or regulation of which we are aware, and so without additional evidence
of violative conduct, reducing the team would in fact be legal. An allegation of improper control
certainly may result in a serious management issue, but again there was no allegation of violative
conduct resulting from the alleged inappropriate control. The allegation of suspected improper
communications, without more, did not permit us to tailor our inquiry to uncover specific
violations of information disclosure 21 or bribery or conflict of interest prohibitions. 22 Therefore
we did not conduct this investigation as a criminal investigation. We conducted this as a
preliminary investigation which might, or might not, result in detailed allegations sufficient to
support formal investigative efforts (by appropriate law enforcement authorities, if necessary).

       We began interviews on September 21,2011. Interviews completed on November 9,
2011. We began review of records pertaining to the position limits rulemaking on December 22,
2011, which triggered a few follow up inquiries with witnesses. Document review completed in
February 2012.


                                                       FINDINGS


Allegation #1: Improper Control ofthe Team

       The anonymous allegations generally stated that the team lead for the position limits
rulemaking "sneakily" got himself appointed team lead, and then reduced the team to a group of
inexperienced individuals who would not question him and would permit him to control the rule.
We found insufficient evidence to support either allegation.

       Simply reviewing the public record for the position limits rule, it appears clear to us that
Bruce Fekrat and Steve Sherrod were identified as leading the rulemaking effort throughout the
rulemaking process while the teams were combined.

     On October 19, 2010, the Commission held a public meeting addressing, among other
things, large trader reporting for swaps and physical commodities in connection with the
anticipated rulemaking under the Dodd-Frank Act. 23 Addressing the proposed rules for large
swaps trader reporting on that day, the Chairman stated that Bruce Fekrat would be presenting,
along with Steve Sherrod. Both Bruce Fekrat and Steve Sherrod participated at the hearing, with
Bruce Fekrat giving an introductory statement and both employees answering questions posed by
the Commissioners. The Commission approved the proposed rule for large swaps trader
reporting by unanimous vote that day.



21   For instance, section 8 of the Commodity Exchange Act, 7 USC sec. 12, prohibits the Commission from
publishing data and infonnation that would separately disclose the business transactions or market position of any
person and trade secrets or names of customers. The Privacy Ac~ 5 USC 522a, prohibits the disclosure of certain
~ersonal infonnation.
 2   Criminal prohibitions against bribery, graf~ and conflict of interest are located at 18 USC Chapter 11.
23   See fn 5.

                                                             7
     The Federal Register published the proposed rule for position reports for physical
commodity swaps (i.e., large trader reporting for swaps and physical commodities) on November
        24
2,2010       The notice of proposed rulemaking listed both team leads as contacts available to
discuss this rule, with Steve Sherrod listed before Bruce Fekrat.

      On December 16, 2010, the Commission held an Open Meeting on the Eighth Series of
Proposed Rulemakings Under the Dodd-Frank Act 25 The position limits rulemaking was
discussed, and both Steve Sherrod and Bruce Fekrat were present and were introduced together
at the beginning of the discussion of the rule, with Bruce Fekrat noted as "the attorney who led
most of the writing on the rule.,,26 On January 26,2011, the Federal Register published the
proposed rule for position limits for derivatives. 27 On this notice of proposed rulemaking, Steve
Sherrod was placed before Bruce Fekrat in the list ofCFTC contacts available to answer
questions about the proposed rule.

     One witness stated to us that, at the start of his attendance at meetings for the large swaps
trader reporting and position limits rulemaking team, he did not know whether the lead was
Bruce Fekrat or Steve Sherrod. Another witness told us that while he served on the combined
team early on, he thought of Bruce Fekrat as the "back office" team lead and Steve Sherrod as
the "front office" team lead because Steve interacted with the Chairman and Commissioners to a
greater extent. Consequently, we are not sure of the impact or meaning of the title "team lead" in
the context of this team. The public and other team members were consistently given the
impression that both Bruce Fekrat and Steve Sherrod were leading the team.

        The submitter of an anonymous allegation stated that the team leader "sneakily" managed
to become team leader. The team member and non-team member witnesses told us there was a
change in the team and its leadership which occurred after both the large swaps trader and
position limits rules were proposed, and near the close of the comment period for position limits.
Witnesses provided two reasons for the split. First, the two rules were proving to require too
much work for one team given the volume of comments received for position limits. Second, the
position limits rulemaking team was split from the large swaps trader reporting team after both
rules were proposed and it became clear based on the number of comments that, as expected,
position limits would prove controversial. That is, based on the number of comments the large
swaps trader reporting rule would likely be finalized faster than position limits, so the team
members working on swaps large trader reporting split off from the team members working on
position limits.

      Every single witness with knowledge and an opinion told us that Steve Sherrod did not ask
for the position limits rulemaking team lead assignment because, as a Deputy Director, he felt he
already had enough work and responsibility day to day. Instead, Steve Sherrod was assigned the
position by his direct supervisor and the Chairman. According to each of the 22 witnesses we

24 75 FR 67258 (Nov. 2, 2010)( http://www.cftc.gov/ucra/groups/public/@lrfederalregister/documents/file/2010-
27538a.pdo.
25 See fn 7.

26 Open Meeting on the Eighth Series ofProposed Rules under the Dodd-Frank Act, transcript p. 157. (The

transcript is available here:
http://www.cftc. govlucra/groups/public/@swaps/documents/dfsubraission/dfsubraission13 12161 O-transcri. pdf).
27 See fn 8.


                                                        8
spoke with who had an opinion, it made sense to have Steve Sherrod, who had a strong
background in position limits in energy products, head the position limits rulemaking. Nobody
suggested that someone else was better qualified.

     Our discussions with Bruce Fekrat and Steve Sherrod, as well as our review of relevant
email spanning the relevant period for both rulemakings, demonstrates that the two consulted
throughout the process, including after the teams split. Email records for the position limits
rulemaking also show that Bruce Fekrat was included on email regarding the position limits
rulemaking and was given drafts of the position limits rulemaking throughout the drafting
process.

        We also asked team members and others about the allegation that the team was whittled
down to a few inexperienced individuals so that the team lead could control the position limits
rulemaking. Team members and other witnesses uniformly told us that active members on the
position limits and large swaps trader reporting rulemaking team fluctuated during the
rulemaking process. Many team members limited their involvement to the issue to which they
were assigned, largely out of necessity because they had other job duties. It appears most
members did not have comprehensive mastery of the entire rule.

        In any event, the team started out in 2010 with 18 or 19 members, with subgroups
assigned discrete issues. Our breakdown of the relative experience of the original members of
the position limits and swaps large trader rulemaking team can be found below:

Table 2: Experience on the Large Swaps Trader Reporting and Position Limits Rulemaking Team
                                                                      CFTC
NAME                              Job Title                                             Years at CFTC (in 2011)
                                                                      Division
                                                                      DMO               1 to 2
                                                                      alA               1 to 2
                                                                      DMO               1 to 2
                                                                      OITS              1 to 2
                                                                      DMO               1 to 2
                                                                      OGC               1 to 2
                                                                      DMO               1 to 2
                                                                      DMO               1 to 2
                                                                      aCE               1 to 2
                                                                      aCE               1 to 2
                                                                      DOE               1t02 ears(
                                                                      DMO               5 to 10
                                                                      OITS              5 to 10
                                                                      DMO               5 to 10
                                                                      OGC               5 to 10 ears (
                                                                      OGC               10 to 15 ears
                                                                      DMO               15 to 20 ears
                                  Attorney                            alA               15 to 20 years
                                  Risk Mana ement                     DCIO              20 to 25 ears
                                  Economist                           DMO               25 to 30 ears



                                                                  9
         While the original large swaps trader reporting and position limits rulemaking team was
set out in the team opening memo in August 2010, there appears to have been no official
                                                                                   28
memorialization of the new position limits rulemaking team created from the split      Moreover,
we were not able to get a date certain for the decision to split the team.

        Steve Sherrod stated that his core team dedicated to drafting consisted of himself, _
.,                    and                                had a combined 15 years of experience
with CFTC and SEC.                      had 1 to 2 years experience at CFTC, and additional
derivatives and energy transactional experience in the private sector dating to 2006.
had 1 to 2 years' experience with CFTC,
the youngest member of the core drafting team.

        The economist from the Office of Chief Economist who took the lead drafting the cost-
benefit analysis started at CFTC in 2010 and                          ; however, email addressing
the position limits rulemaking demonstrated and confirmed                  that.was supervised
directly by the Division Director, Andrei Kirilenko, specifically in connection with this rule.

        Mr. Sherrod did not wo~sition limits rule during part of the summer of2011
while on leave of absence, a n d _ t o o k over in his absence as lead during the comment
review process. The remaining members of the position limits rulemaking team "core" reviewed
the over 14 thousand comments with assistance, and witnesses and email reviewed by OIG
confirmed that during the Summer of 20 11 approximately 15 people reviewed the thousands of
comments received; however, at the end of this process the team returned to its core to begin
drafting the final rule.

        Steve Sherrod and others told us that drafting of the proposed and final rule, the most
intensive work performed by team, was performed by fewer team members somewhat of
necessity, there being little time to circulate portions of the draft to so many people during the
process. Witnesses volunteered that the newer employees on the team often would be in a better
position to put in the long hours drafting a single issue or a single document, while more
experienced (and knowledgeable) employees would usually be too busy doing their regular
supervisory and technical work at CFTC. The ebb and flow ofteam members throughout the
process was described to us as an ordinary aspect of rulemaking. Team members told us that
members would drop in and drop out as their specific areas of expertise and issues were
addressed, and as they were pulled on to other CFTC work during the relevant period. Witnesses
certainly described a variety of issues and disputes among staff during the process, along with
hurt feelings, but we did not receive any specific allegations of misconduct, abuse, or improper
control. Witnesses both praised and criticized the management styles for both the large swaps
trader reporting and position limits rulemaking team leaders.


28 However, Steve Sherrod publicly thanked the following CFTC employees during the Open Meeting on Two Final
Rule Proposals Under the Dodd-Frank Act (October 18, 2011): Rick Shilts, Salman Banaei, Ken Danger, Tom
Littlefield, Martin Murray, John Forkkio, David Kass, Dave Amato, Vincent Varisano, Raphael Martinez, Jordan
Grimm, Jim Outen, Gary Martinaitis, Hannah Ropp, Stephen Kane, Andrei Kirilenko, Dan Berkovitz, Neal Kumar,
Carlene Kim, and Mark Higgins.
http://www.cftc. govlucm/groups/public/@swaps/documents/dfsubmission/dfsubmission7 10181 I-trans. pdf (hearing
transcript at page 135-136).

                                                      10
        Steve Sherrod told us the draft proposed and final rule was circulated to the larger team
for review and proofreading. The completed draft was then circulated to the Chairman's staff for
review and comment. Requested amendments from the Office of the Chairman were performed
by the Team Lead and the smaller group that had participated in drafting. The revised draft was
then submitted to the Commissioners for review and comment. The Commissioners were briefed
on the draft rule, as requested. Changes requiring re-drafting were performed again by the core
group that performed the drafting.

        Multiple witnesses told us that the position limits rulemaking, more than most, generated
input from the Commissioners and the Chairman. One witness remarked that he considered
Steve Sherrod to be more a "technical" team leader because, due to the input by the Commission,
he was not recommending policy as much as would normally be the case in a rulemaking.
Another team member joked that he believed Steve Sherrod could never win debates with the
Chairman for this rule.

        At the end of the process, the final draft was circulated to a larger group of reviewers,
including two CFTC employees with more than 20 years' experience, each, at CFTC. Table 3,
on the next page, expands on the original team shown at Table 1, and shows all CFTC employees
identified as working on the position limits and large swaps trader reporting rules:




                                               11
Table 3 - Everyone Who Worked on or Were Consulted in Connection with the Position Limits and Large Swaps Trader Reporting Rulemaking
                                                     Aggregate Position setting                                              Foreign boards Large Trader          Assisted or                              Left
                                                                                  Significant Price                                                                             consulted or    core
                                      YearsatCFTC(in Limits for Physical position                   Hedge      Account       of trade       ReportingSystem       supervised                               Agency
NAME       Job TItle                                                                                                                                                            asked to review drafting
                         CFTCDivision 2010)          Commodity           limit    Discovery         exemptions aggregation   (account       ("LTRS") for Physical team                                     and did
                                                                                  Function Swaps                                                                                fi nal          team
                                                     Futures and Swaps levels                                                aggregation)    Commodity Swaps      member(s)                                no work

•          Altomev       DMD          1to 2 years

           Attorney      DIA          1to 2 years

Bruce
           Attorney      DMD          Sto 10 years
Fekrat
                                      Sto 10 years
           Attorney      OGC          (pi us 8 years SEC v'
                                      I
           Attorney      OGC          lOto IS years

           Economist     DMD          2Sto30years                                                                                            ,(

           Associate                                                                                                                         ,(
                         DMD          lSto2Oyears
           Di rector

           Economist     DCE          1to 2 years

           Senior IT     OITS         1to 2 years                                                                                            ,(


           Economist     DMD          1to 2 years                                                                                            ,(



           Senior IT     OITS         Sto 10 years

           Economist     DMD          1to 2 years

                                      Ito2years(plus
           Attorney      ENE
                                      Syears at FERC)

           Economist     DCE          1to 2 years

           Attorney      OGC          1to 2 years

           Attorney      DIA          lS-2Oyears


           Economist     DMD          1to 2 years

           Sup'vy Risk
                         DClD         2Oto2Syears
           Analyst
Steve      Deputy
                         DMD          Sto 10 years
Sherrod    Di rector
"Economist               DMD          1to 2 years




                                                                                                12
Table 3 - Everyone Who Worked on or Were Consulted in Connection with the Position Limits and Large Swaps Trader Reporting Rulemaking (continued)
                                                        Aggregate Position Setting                                               Foreign boards Large Trader            Assisted or                              Left
                                                                                     Si gn ificant Pri ce                                                                             consulted or    core
                                      Years at CFTC (in Limits for Physical position                      Hedge      Account     of trade       Reporting System        supervised                               Agency
NAME        Job Title   CFTC Division                                                Discovery                                                                                        asked to review drafting
                                      2010)             Commodity           limit                         exemptions aggregation (account       ("LTRS") for Physical   team                                     and did
                                                                                     Function Swaps                                                                                   final           team
                                                        Futures and Swaps levels                                                 aggregation)   Commodity Swaps         member{s)                                no work
Andrei
              Director     aCE           3t05years
Kirilenko
                                         2 years (pi us 18
              Attorney     ENF
                                         years FERC)
              Sup'vy
                           DMO           15t020years
              Economist

              Attorney     DMO           20 to 25years

              Attorney     DMO           25t030years

              Attorney     COM           5to 10years

                                         2years{plus6
              Economist    ENF
                                         years at DOE)
              Economist    aCE           5to 10years

              Economist    DMO           1 to 2 years

              Economist    DMO           30-35years

              Economist    DMO           3t05years

Rick Shilts   Director     DMO           35t040years
              Attorney     DMO           1 to 2 years

              Economist    aCE           1 to 2 years

              Attorney     DMO           20 to 25years

              Deputy
                           ENF           10 to 15years
              Director
              Sup'vy
                           DMO           15t020years
              Economist
              Law Clerk    DMO           1 to 2 years




                                                                                                           13
        We find that the position limits rulemaking team was created by the Chairman after
publication of the notices of proposed rulemaking issued for the large swaps trader reporting and
position limits rulemaking. The position limits rulemaking team was created because the two
rules were too much work for one team, and because the position limits rulemaking was proving
to have thousands more comments to digest and, therefore, issues to address in the final
rulemaking. We find the Chairman appointed Steve Sherrod to be the leader of the new team
upon his own recommendation and the recommendation of Rick Shilts, Director, DMO. We find
that Steve Sherrod did not of his own volition endeavor to be made the head of this rulemaking
team, "sneakily" or otherwise.

        The new position limits rulemaking team started out with approximately 15 members
who reviewed the thousands of comments received for the proposed rule, then got small for
drafting with a core of four individuals drafting the final rule, and then large again for the last
reviews, including inclusion of CFTC employees with over 20 years' experience to give fresh
eyes to the draft. Where a young economist with 1-2 years' experience had a key drafting role
for the cost-benefit consideration, she was supervised directly by the Division Director. While
the core team performing the drafting was small, we do not find that the team lead committed
any misconduct. We are influenced also by the fact witnesses were uniform in expressing their
view that the Commission, and not the team lead, had the greater influence in policy for the
position limits rulemaking.


Allegation #2: hnproper External Meetings

        One of the anonymous allegation stated that the position limits rulemaking team leader
"met with several industry lobby groups, so I suspect some fraud and dishonest effort here." A
review of the public record for the position limits rulemaking shows that there were 177 external
                                            29
meetings in which this rule was discussed. The source of the anonymous allegation offered no
detail whatsoever regarding the date of or parties to any meeting where "fraud and dishonest
effort" took place, nor did we receive any description of what the "fraud and dishonest effort"
specifically involved. We asked each witness about external meetings, specifically whether they
witnessed anything improper. Each witness stated that they had not witnessed anything improper
happening at any external meeting. Due to the lack of specificity in the allegation, we were not
able to probe the allegation in any real depth.


Allegation #3: The Position Limits Rule is not Workable Because it Conflicts with the Large
Swaps Trader Reporting Rule

         The anonymous allegations contained the following assertions:

     •   "The PLR can't be connected to the Swaps reporting rule upon which it depends for
         implementation"

29This infonnation is found on the CFTC website at
http://www.eftc.gov!LawRegulation/DoddFrankAetiRulemakingsiDF26PosLimits/index.htm .

                                                 14
       •   The position limits team "chose to forge ahead with a plan that required a completely
           different information set [from the swaps reporting rulemaking] and is thus planning to
           propose something that cannot possibly be implemented. I find it hard to believe this was
           by accident ... and suspect the motives of this person."

       •   In a nutshell, the rule on position limits depends on gathering information in a very
           peculiar way, alien to industry practice, even academic practice, and most importantly,
           alien to how the Swaps Large Trader Reporting Rule was designed. So, it is not
           implementable unless the SLTR is modified. However, that rule was finalized with few
           comments and was supposed to be put in practice starting in two weeks. Now [the team
           lead] is asking that SLTR rule to change to fit his PosLim rule. This would require such
           major changes that it would have to be delayed, reopen for comments, etc. crucially, the
           new data would perhaps help his rule, but would make it nearly useless for any other
           purpose, like Risk Surveillance or even market Surveillance.

    Interdependency between the large swaps trader reporting and the position limits
rulemakings was acknowledged in Commission publications during the rulemaking process for
both rules. Indeed, in the first sentence of the proposed rule titled "Position Reports for Physical
Commodity Swaps,,30 - the large swaps trader reporting rule - stated:

           The Commodity Futures Trading Commission ("Commission" or "CFTC") is
           proposing reporting regulations that are reasonably necessary for implementing
           and enforcing aggregate position limits for certain physical commodity
           derivatives.

        The notice of proposed rulemaking also stressed that swaps reporting will assist market
surveillance 31 The final large swaps trader reporting rule continued to acknowledge that large
trader reports would be used for both surveillance and enforcement purposes:

           The Reporting Rules, as finalized and adopted herein, will allow the Commission
           to administer its regulatory responsibilities under the Commodity Exchange Act
           ("CEA or Act") by implementing and conducting effective surveillance of
           economically equivalent physical commodity futures, options and swaps. The
           Reporting Rules will directly support the Commission's transparency initiatives
           such as its dissemination of Commitments of Traders and Index Investment Data
           Reports and will allow the Commission to monitor compliance with the trading
           requirements of the Act 32

        Likewise, the notice of proposed rulemaking for the position limits rule recognized the
importance of the large swaps trader reports, stating that the position limits would be set in the
future, based on information reported by large swaps traders:


30   75 FR 67258 (Nov. 2, 2010).
31   Id. at 67264.
32
     76 FR 43851 (July 22,2011).

                                                  15
                Because the Commission will not be able to implement a comprehensive
        system for gathering swap positional data for some time, this notice of proposed
        rulemaking does not propose to determine the numerical non-spot-month position
        limits for exempt and agricultural commodity derivatives resulting from the
        application of the open interest formulas in proposed Sec. 151.4. Rather, this
        notice of rulemaking provides for the determination of such limits when the
        Commission receives data regarding the levels of open interest in the swap
        markets to which these limits will apply.

                 The Commission anticipates fixing initial position limits pursuant to the
        formulas proposed herein through the issuance of a Commission order. As
        proposed, CFTC-set position limits after the transitional period would be
        recalculated every year based on the formulas set forth in proposed Sec. 151.4,
        subj ect to any changes to the formulas that may be proposed and adopted based
        on the Commission's surveillance of the markets for referenced contracts. In this
        regard, as discussed in further detail below, the proposed position visibility
        regulations, which would effectuate reporting requirements that are similar to
        current reporting requirements for large bona fide hedgers, may facilitate
        evaluating the efficacy and appropriateness of the proposed position limit
        framework if adopted. 33

        In addition, the interrelationship between the large swaps trader reporting and the
position limits rulemakings was discussed at length in public meetings held to address both rules.
In an October 2010 public meeting to discuss the large swaps trader reporting rule it was clearly
recognized that the large swaps trader and position limits rulemakings would be interrelated:

        If the Commission adopts aggregate position limits, the swaps data will be
        essential for staff to conduct surveillance and determine compliance with such
               34
        limits

       By July 2011, the discussion was drilling into the discrepancies and difficulties of
coordination between large swaps trader reporting and position limits enforcement:

        COMMISSIONER DUNN:                I'm a little concerned because this data is what we
                                          will be basing position limits on and if we don't
                                          have a clear idea of what the total universe is out
                                          there, won't it be difficult for us to be establishing
                                          these position limits based on that proposed rule?

        MR. SHILTS:                       As we go to make a proposal on limits, the idea is
                                          that we would be getting this information and/or

3376 FR 4752,4753 (Jan. 26, 2011).
34 Transcript, Open Meeting on the Second Series ofProposed Rulemakings Under the Dodd-Frank Act ("Second
Open Meeting"), Washington, nc., October 19, 2010, page 36-37.
http://www.cftc. gOY/ucra/groups/publie!@swaps!documents!dfsubraission!dfsubraissionI9 10191 O-transcri. pdf


                                                      16
                                          have this available. And I think as Bruce said, as
                                          this starts coming in and as we do further work
                                          working with the potential swap data repositories,
                                          we should be getting a much better feel for the
                                          scope of the information that we're getting. And as I
                                          said, I think in some areas I think we do have a
                                          pretty good feel for roughly the amount of swaps
                                          that potentially would be captured because, as I
                                          said, for some commodity areas there is a
                                          significant amount that's already being cleared
                                          through the various initiatives of the clearinghouses,
                                          but it's something that we'll have to continue to
                                          focus on and see how as we get the information and
                                          as we do further with the swap data repositories, we
                                          should get a much better handle on that. 35

        Even early on, Commissioners realized certain unavoidable difficulties attendant to
issuing large swaps trader reporting rules prior to position limits:

        Commissioner Sommers:             Even if the proposed rule we are discussing today were
                                          effective by November 30th, it will not provide complete
                                          information sufficient to impose position limits. Under
                                          these circumstances, when considering the imposition of
                                          aggregate position limits on exempt and agricultural
                                          commodities, I believe that the Commission should find
                                          that imposing such limits is not appropriate in the absence
                                          offull and complete data and analysis of the open interest
                                          of each market. I believe it is a mistake to interpret the
                                          arbitrary 180- and 270-day deadlines as somehow trumping
                                          the requirement that the Commission make an
                                          appropriateness determination before imposing any
                                          position limit.

                                          *        *        *
        Commissioner Chilton:             I'm actually somewhat sympathetic to the predicament that
                                          we're in that Commissioner Sommers described, sort of
                                          putting the cart before the horse to some extent. Even
                                          when we have talked about this, you know, a year ago in




35 Transcript, Open Meeting on Five Final Rule Proposals Under the Dodd-Frank Act, Washington, nc. (July 7,
2011), page 100-101.
http://www.cftc.gov/ucm/groups/public/@swaps/documents/dfsubmissionldfsubmissionmult 070711-trans.pdf

                                                       17
                                          our hearings and then in January, one of the suggestions I
                                          had in general on limits was that we do no harm .... 36

        We believe the fact that the interrelationship between the two rules was made public may
explain why the discrete issue raised in the anonymous allegation apparently was not raised in
any of the more than 14,000 comments received for the position limits rulemaking.

        We asked the team members whether there were compatibility problems between the
large swaps trader reporting and position limits rulemakings. We learned from witnesses that the
issue was very technical and does not go to the actual calculation of position limit amounts that
the Commission may impose. Instead, the issue goes to the type of swap transaction that will be
counted toward the tally of each large trader's position when determining whether limits are
violated.

        In order to conduct market surveillance, the Commission wants to see a very broad class
of swaps; however, we were told that for purposes of calculating position limits, the Dodd-Frank
Act exempts certain swaps, such as swaps that pre-date the Dodd- Frank Act and swaps positions
that contribute to certain technical hedging strategies. This means that, in some instances, the
transaction type is relevant. Identifying the subset of swaps that will be counted by each large
trader for purposes of calculating compliance with position limits that may eventually set by the
Commission was not covered in the swaps reporting rule. Nevertheless, separate identification
of the subset of swaps that count toward the Agency's calculation of each large trader's
compliance with position limits will necessarily be a part oflarge swaps trader reporting.

        At some point during the process of drafting the position limits rulemaking, the disparity
between the reports required under the final large swaps trader reporting rule that facilitate
market surveillance, and the narrower class of swaps that contribute to position limit calculations
-- specifically how to define the data fields and regulate reporting in the implementation phase of
the swaps reporting rule -- became an issue after the large swaps trader reporting rule was
finalized. Witnesses told us that implementation would present a real challenge because the
large swaps trader reporting rule as finalized did not support position limit reporting. During
staff-level debates at the end of Summer 2011, some people were dismayed at the amount of
work left to be done to implement large swaps trader reporting and certainly staff differed on
how best to resolve the attendant issues.

     During our interviews, staff and management opined that it will be possible to address these
issues during the implementation phase of swaps large trader reporting, as well as through the
use of special calls and staff interpretations.

      On September 16, 2011, the Commission issued temporary and conditional relief from
certain requirements of the regulations regarding large swaps trader reporting. Specifically, by
delegated authority the Director of the Division of Market Oversight determined to relieve
clearing organizations and clearing members as a class from certain reporting requirements until

36Transcript, Open Meeting on the Second Series ofProposed Rulemakings Under the Dodd-Frank Act ("Second
Open Meeting"), Washington, nc., October 19, 2010, page 44-45.
http://www.cftc. gOYlucra/groups/public/@swaps/documents/dfsubraission!dfsubraission19 10191 O-transcri. pdf

                                                      18
November 21,2011, for cleared swaps, and until January 20,2012, for uncleared swaps37 The
reason for the relief follows:

           Division staff is actively engaged in ongoing compliance and implementation
           discussions with clearing organizations, clearing members, potential swap dealers,
           and data service providers, both separately and through the International Swaps
           and Derivatives Association and the Futures Industry Association. The Division
           believes that the participants in these discussions are representative of the parties
           that will be subject to the reporting rules. The Division further believes that the
           continuing participation of expected reporting parties in discussions to address
           compliance and implementation issues raised by the reporting rules represents a
           good faith attempt to comply with the requirements of part 20. Accordingly,
           consistent with the authority delegated by § 20.8(a)(S), the Director of the
           Division has determined to relieve clearing organizations and clearing members
           as a class from the reporting requirements of §§ 20.3 and 20.4 until November 21,
           2011 for cleared swaps, and January 20, 2012 for uncleared swaps.

        On November 18, 2011, the Commission again issued temporary and conditional relief
from certain requirements of the regulations regarding large swaps trader reporting. Specifically,
by delegated authority the Director of the Division of Market Oversight determined to relieve
clearing organizations and clearing members as a class from certain reporting requirements until
March 20, 2012 38 The reason for the relief follows:

           Division staff is actively engaged in ongoing compliance and implementation
           discussions with clearing organizations, clearing members, potential swap dealers,
           and data service providers, separately and through the International Swaps and
           Derivatives Association and the Futures Industry Association. The Division
           believes that the participants in these discussions are representative of the parties
           that will be subject to the reporting rules.

           The Division also believes that substantial progress has been made towards
           finalizing reporting guidance and an XML-based reporting format and record
           layout, and facilitating the ability of reporting parties to comply with such
           guidance and format requirements. The Division intends to issue and publicly
           distribute in the coming days a guidebook for part 20 reports to provide formal
           reporting guidance. The guidebook will include a final XML-based reporting
           format and record layout. The Division notes that an additional XML-based
           reporting format and record layout for §§ 20.3 and 20.4 reports may be accepted
           prior to March 20, 2012.

        On December 17, 2011, the Commission announced the publication of a Guidebook for
Part 20 Reports providing additional guidance and detailed instructions for submitting large




37   http://www.cftc.gov/ucm/groups/public/@newsroom/documents/fileIrelief letter 091611.pdf
38   http://www.cftc.gov/ucm/groups/public/@newsroom/documents/file/relief letter 111811.pdf

                                                       19
swaps trader reports to the Commission 39 The 45-page guidebook contains detailed technical
instructions for large trader swaps reporting. 40

        The swaps large trader reporting rule, as adopted, currently does not address all
complexities specific to position limit establishment and enforcement. However, it is clear that
the Commissioners and Commission staff were aware of these issues to a sufficient extent
throughout the rulemaking process, and made public this awareness, and it appears that issues
pertaining to position limit monitoring and enforcement will be addressed during the
implementation phase for large swaps trader reporting. We do not detect any cause for these
issues that may be attributed to misconduct by CFTC staff.


Allegation #4: Fear of Retaliation

        The anonymous allegations generally conveyed a fear of retaliation in DMO, but did not
give specific examples of acts of retaliation against named individuals in response to protected
disclosures or complaints. We asked each witness who works in DMO to tell us whether they
believe there is a fear of retaliation. They all replied in the negative. To be sure, team members
on both teams, as well as other witnesses, held both positive and negative opinions of Bruce
Fekrat and Steve Sherrod. We received praise and complaints about both regarding their
leadership and management styles. However, team members told us that, when DMO
management was notified of perceived issues with either team lead, steps were taken by
management within DMO that resolved the situation. No team member stated that they believed
Steve Sherrod (or Bruce Fekrat) had committed any illegal acts.


                                              CONCLUSIONS

         We encourage the submission of allegations to the CFTC Office ofInspector General.
Although the allegations at issue here were very serious, the lack of specificity regarding acts
that would violate statutory or regulatory provisions, or amount to fraud, waste, abuse, or
retaliation, made our task somewhat difficult in connection with this preliminary investigation.
We offer no opinion on the position limits rule or pending legal challenges. We did not find any
improper conduct by CFTC staff and management in connection with the creation of this rule.




39   http://www.cftc. gOYiPressRoomiPressReleases/pr6156-11 .
40   http://www.cftc. gOY/ucm/groups/publie!@newsroom/documents/file/ltrguidebookI20711.pdf

                                                       20
APPENDICES




    21
Appendix 1: Acronyms

                                                            /
Acronym    Title                                         /
                                                       ,
DMO        Division of Market Oversight             .
OIA        Office of International Affairs
OITS       Office of Information Technology Services (now the Office of Data and
           Technology)
DCIO       Division of Clearing and Intermediary Oversight
DOE        Division of Enforcement
OGC        Office of General Counsel
OCE        Office of Chief Economist                       I

COM        Office of the Chairman and Commissioners
OIG        Office of Inspector General                       /


CFTC       Commodity Futures Trading Commission


During the summer 2011, the CFTC replaced the Division of Clearing and Intermediary
Oversight with two new divisions:

Division of Clearing and Risk
Division of Swap Dealer and Intermediary Oversight

In addition, the CFTC replaced the Office ofInformation Technology Services, which previously
acted as a sub-division of the Office of the Executive Director, with the new Office of Data and
Technology. The Office of Data and Technology is separate from the Office of the Executive
Director, and is restructured to include some data specialists formerly working in other CFTC
Divisions.

We are using the division names and acronyms that were in place during the majority of the
relevant period (July 20l0-December 2012) for reasons of convenience.




                                               22
Appendix 2: Disclosure


        On March 31, 2011, the Office ofInspector General for the Federal Election Commission
(FEC) issued a required peer review of the CFTC OIG audit function which recommended,
among other things, the hiring of experienced audit staff. 41 Prior to publication of the peer
review report, CFTC OIG retained the services of a former Inspector General with over 20 years
of directly applicable federal audit experience to supervise remediation efforts, including all
audits and audit-related activities. Following publication of the peer review report, we received
job inquiries from Steve Sherrod and other CFTC employees interested in working as an auditor,
with some stopping by to discuss the peer review recommendation and others submitting
resumes. Although we have been impressed by the resumes we have received from CFTC
employees, during the relevant period OIG did not post a job listing for an auditor and no CFTC
employee was formally considered for employment with CFTC OIG. We do not believe that the
receipt of job inquiries when we are not currently engaged in the hiring process causes an
insurmountable conflict in connection with a preliminary investigation (otherwise all CFTC
employees would seek employment with OIG). During our field work, two CFTC employees
suggested that the anonymous allegations were an attempt by other CFTC employees to derail
any attempt by Steve Sherrod to work in the OIG. We have no opinion.




41   The peer review report is available here:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oig peerreview.pdf.

                                                     23
EXHIBITS




   24
Exhibit 1: Anonymous Allegation Received by
    Physical Delivery on August 31, 2011




                     25
            PI~~,;" i""e~jg~te the posiTion limits ",1c'makin~ (PI R !rn~,,'" Ih"1 ha' IHk"" ria,'"
            he~ at CFTC. Thi~ ruk il ~OO~I to en fi,,~I. h:,~ if, !lr"ken, it cannm he
            impl~m~TlI(·u. W!tet1 ~he i"<I~~\ry (nr the Hill) ~ee~ thi~, ti'ey will invesdgate the
            pT"V'.'''~~ ami the mnny inlen'al 11l:~-~ef'><, w('.Me. a:td in'proprieties will s\lrface,

            As writtcn.    ~"'~   PLR ~"n1 I:x: "<.'!\II""I"U   I~   Ilw   S"~>"!   n:p<mino: rok up<Jn ",hid, it
            d"I",,,d, fur' i"'l'lementltion. I f ~po'tjng d~~ on, 311nw few II", cnlculm inllS "I'
            po.;tio~, (as r"'luin:d by lh" n,'") Ihl.". p<Jsiliun limit, ,'annUl be ~nfo,c.d. The
            S"'''I'' Tule 11l1S I;o"ell well r"c~i,'~d ""d .iewed '" ",a'UfI>,bl~, Ilwul:hlflll. and
            i'"I",le"u'lahle

            Slc,'C SINn:"O,J th~ Ic"deT of lh~ PLR W,m I, responsible for lhi. wnoted. m;,/;uiJc,1.
            Jilency eifort fonl1e f(Jll(JwLn~.,eJ..I(J"I,
            I Ie e"lIe<l eXP<'rl~ rroltllh~ ..,ri;:imlll~~m OCCLIU","' t,,~y disaJl,reed with hi~ jl(J;"i ~f
            view for the dirtction c>f thi~ role. I he f"ml n11~ ij tlllt H C()mmill~~I~\allprodue\.
            il i~ Ilil HIOl\~, H~ hal met with several il1du.ltry l(Jhhy gmul'S, so I su,~el somc
            fraull a'id   ,1i~orl~ll ~ITor\ h~n:,
            TI1ere    w~s allOl'l 15 p"o\!l~ lro," ~~rul, lh~ Hgc'n~~', now thore are only 311(Jut 1>. A II
            the   cur~nt tenm mellll>er:l hn\'e I~,< ,I'Hn 18 "''-'lTlh, ~rCFTC lenure. j have le~~
            ,11>1" 2 ye""l of fUIUTCI inUlLMT)' ~xpcriCT1cc, 1 attomey nnd I ~ln(i~li,;iHII w~n: hirr..xJ
            wilhin lht In<,t yeaT. Slev~ ",,1""k,1 the," p"Opk boC"I'5\: he kn~w the)' w,)"I<.I ''''I
            gel in his w~y. PI"","", im..v;ew th~ m.mlle'" "!'Ihe "r;gi",1 lull 'e",ll. tl1cy will
            verify lhi•.
            The ruk i, broken unci I tea, th'l ;f ;nvc<tigoted exterll31ly, the ('I''I'(' will l:"'",ly
            ~Tlff~r. S" Ill'''')' sllltT~", hllki"l:: "be'"l (hi, th"t I "1", think it will prohohl)' lea~
            UIII. Th'" is un"c""ptablc.

            Thc CITe will My,' to live with the        re~TlIt~ Mtlli~ Ioro~et' r,,1e lur yca",. Somc
            "lI>er~ nre h.:silJi'lt 10 ~om~ [urlll be~HU>C lhls nde gets ~o much attemi"". II is"
            major Jg.el:dn Item (Jftlle Cllai""mu. 1Ie i~ a P'J"~rr\11 p'r,on. 8UI, this i~ Il ve,')'
            scriO\15 ll1~tlcr.

             J11e r~le effol't has l>e~" a WU,te (jl'u~em'y r".""",,~s ~nll ~n ~b\l~e of power, nnd
            pc'rhaps so:nc fraud. \ofr Sherrod i< unethic~1 a"d di~Ir""(,,1 in hi, I",,,,,i" in this
            ,,,,,I "1",,, 1l1~1I,'~, ll'lh:~ ~~(, O~I, (to the Hill 1. lhe dam3ge w,'uld be immeTlS/l.




E><hibit2
Exhibit 2: Anonymous Allegations Received by
                  Email




                     27
~~~jiiiijiii~-----
Sent:                     Wednesday, August 31, 20112:33 PM
To:                       OIGEmaii
SUbject:                  Insider reports dishonest effort in rulemaking, sabotage of rule, potential market harm


Dear Sir or Madam,
I am a CITC employee writing through pseudonym since I am afraid of renewed retaliation. I believe a team
lead of a crucial rulemaking team has acted dishonestly and led his team to a point were their rule is not
implementable.
 I am referring to the rulemaking on position limits. The team was gradually trimmed until it was left with only
the most inexperienced staffers so that the team lead would have absolute control. The posilion limit rule
depends for its implementation on the work of another rule, the swap large trader reporting. Since you cannot
limit positions unless you can measure them, the poslim rule is limited by what the SLTR requires traders
submit. The SLTR was thoughtfully written and was out for comment, receiving just a handful of minor
comments. It is to be implemented in three weeks. Yet, the poslim team lead chose to forge ahead with a plan
that required a completely different information set and is thus planning to propose something that cannot
possibly be implemented. I find it hard to believe this was by accident (Is utter incompetence something you
look at too?) and suspect the motives of this person.
  Gutting out the intent ofPosilion Limits as required by Dodd-Frank, wasting taxpayer monies, stearnrolling
over other staff, proposing a rule that cannot possibly be implemented, is wasteful. More than that, it is
dishonest. I hope you investigate before it is too late. Perhaps there is a chance to rectify before the CFTC
damages markets and public confidence.
  Thank you,
Anonymous.




                                                           28
 ~~~~~------
 Sent:
 To:
                           ~
                           ____
                                             09.20119:33 AM

 Subject:                  Re: Reply to your email-Urgent

 Thank you,~or responding.
   I am simultaneously terrified of complaining and appalled by what is going on with the rulemaking on position
 limits. By now it may be too late to do anything: a proposal has been circulated, meetings with Comms arc
 taking place and a new draft with their comments and compromises is due end ofnext week.
   Perhaps it is best to just let it come out and when you see all Comms distancing themselves from it and all
 parties outraged, you will have more time and sources to review how we ended in this mess.
   In a nutshell, the rule on position limits depends on gathering information in a very peculiar way, alien to
 industry practice. even academic practice, and most importantly, alien to how the Swaps Large Trader
 Reporting Rule was designed. So, it is not implementable unless the SLTR is modified. However, that rule was
 finalized with few comments and was supposed to be put in practice starting in two weeks. Now Sherrod is
 asking that SLTR rule to change to fit his PosLim rule. This would require such major changes that it would
 have to be delayed, reopen for comments, etc. Crucially, the new data would perhaps help his rule, but would
 make it nearly useless for any other purpose, like Risk Surveillance or even Market Surveillance.
   Simultaneously, Sherrod is drafting the new rule to be a complete cave out. This way perhaps people out in
 industry will not notice the mess as much. When the limits are so high and positions so easy to offset, they
 would NEVER get hit, How can anyone know that they are not really implemented?

  This was a completely avoidable problem, the incompatibility oftwo rules that should work together, since
 both rulemaking teams used to work together under Bruce Fekrat. Sherrod sneakily got Bruce kicked out and
 kept the PosLim staffed with inexperienced people whom he could bully. There was no check on him, he
 worked nearly secretely (as he always does) and upended the whole thing. Was this incompetence,
 mismanagement from above, or outright sabotage. That is the question.
  For those of us that devoted over a year ofour professional lives to rulemaking, it is devastating that we will
 have to hide in shame in our resume what should have been a signal effort for an attorney at the CFTC.

   If you want to know more now though, I would suggest chatting confidentially with the team on SLTR and
 some of the people in the PosLim rule (e.g. Salman, Kim, etc)
  1am way to scared to come out to OIG, specially if what I hear is true and Sherrod ends up there. He would be
 allover me and 1 would have to leave the agency.

  1hope you do look into this for the credibility of the Agency. Working at the OIG, I hope you have the
 courage 1 cannot find.

 Best of luck.

 AP


. . . . . . .p 7, 2011 at 9:06 PM,                               cftc. ov> wrote:


 Thank you for expressing your concerns about the proposed position limit rules and related matters.




                                                            29
Can you please provide me with more specific details so that we can efficiently evaluate your concerns?

Members of the Office of the Inspector General are available to confidentially meet with you at any location to
acquire any information you have on the matters you slated in the email dated August 31, 20 II.

1 can be reached at 202-418-5115.

Time is of the essence.




-
Waiting to hear from you,




                                                       2




                                                       30
